                                     UNITED STATES
                          NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                           June 3, 2013




MEMORANDUM TO:               R. William Borchardt
                             Executive Director for Operations


FROM:                        Stephen D. Dingbaum /RA/
                             Assistant Inspector General for Audits


SUBJECT:                     MEMORANDUM REPORT: AUDIT OF NRC’S
                             INFORMATION TECHNOLOGY READINESS FOR THREE
                             WHITE FLINT NORTH (OIG-13-A-19)




The Office of the Inspector General (OIG) conducted this audit to evaluate the
readiness of information technology (IT) during the transition to Three White Flint North
(3WFN). Through interviews with Nuclear Regulatory Commission (NRC) staff, analysis
of IT contracts, and direct observation, OIG auditors found:

                    NRC tested IT infrastructure in 3WFN.
                    NRC has plans for moving and testing IT systems in 3WFN.

As a result, OIG determined that NRC has performed appropriate IT system deployment
planning and testing, and that these measures provide adequate IT readiness at 3WFN.
Therefore, OIG makes no recommendations.
                                    Audit of NRC’s Information Technology Readiness for Three White Flint North




OBJECTIVE

The audit objective was to evaluate NRC’s IT readiness during the transition to 3WFN.


BACKGROUND

The NRC headquarters campus in Rockville, Maryland, comprises three buildings: One
White Flint North, Two White Flint North, and the recently completed 3WFN. NRC
planned this new building to provide adequate office space for all headquarters
employees on one centralized campus, replacing NRC offices located at four separate
leased spaces in Montgomery County, MD.

Prior to moving staff into 3WFN, NRC must ensure that the IT infrastructure is in place
to allow staff to be fully functional in the new facility. This includes ensuring that IT
systems currently located at other NRC headquarters facilities are transported to 3WFN,
installed, and tested so that employees have access to the systems needed to do their
jobs. The Office of Information Services plays a key role in these activities, and
coordinates its work with other offices that will occupy workspace in 3WFN.

NRC has moved its Professional Development Center and Office of the Chief Human
Capital Officer to 3WFN. Staff from other NRC offices will occupy 3WFN in 2013 as
NRC revises its move schedule to align with new General Services Administration
space requirements.


RESULTS

IT Readiness Requires Pre-Deployment Testing
NRC policy and industry best practice guidance establish standards for ensuring
readiness of IT systems prior to deployment. Specifically, NRC Management Directive
2.8, Project Management Methodology, requires testing to verify that requirements have
been implemented, and to identify and correct defects before system deployment.
Similarly, the Institute of Electrical and Electronics Engineers recommends software
system testing in relation to the operating environment, as well as evaluation of test
results. In short, IT systems should undergo testing and necessary corrective action to
ensure readiness for users upon deployment.


                                              2
                                                Audit of NRC’s Information Technology Readiness for Three White Flint North




NRC Tested IT Infrastructure in 3WFN, and Has Plans for System Deployments in
3WFN
Based on interviews, contract analysis, and direct observation, OIG determined that
NRC tested IT infrastructure in 3WFN and has appropriate plans for future system
deployments in 3WFN.

Infrastructure testing included network connectivity and individual workstation testing.1
NRC and its network maintenance contractor have procedures to move staff IT
equipment into their new 3WFN workspace, and for testing this equipment before staff
return to work. Some data systems, such as High Performance Computing, 2 have
separate contracts that provide for equipment setup and testing in 3WFN. Further,
NRC’s new Operations Center in 3WFN will undergo several months of testing to
familiarize staff with the facility and its IT equipment, including mock exercises designed
to simulate incident response scenarios involving NRC headquarters and regional
personnel.

IT Readiness in 3WFN Is Adequate
OIG auditors concluded that NRC has performed appropriate IT system deployment
planning and testing, and that these measures provide adequate IT readiness at 3WFN.


CONCLUSION

OIG conducted this audit to evaluate IT readiness during the transition to 3WFN.
Through analysis of documentation and interviews with NRC staff, OIG found that NRC
has taken appropriate measures for deploying and testing IT systems in 3WFN.
Therefore, OIG makes no recommendations.


AGENCY COMMENTS

OIG held an end-of-fieldwork meeting on April 23, 2013, to brief agency staff on the
audit results. OIG provided agency staff with a draft report for comment. Staff reviewed
the draft report and offered no comments.

1
  NRC conducted testing of electrical and other infrastructure in 3WFN at the end of the building’s construction
phase in 2012.
2
  NRC’s High Performance Computing System is used to perform nuclear reactor safety analysis, such as fluid
dynamics computations.
                                                          3
                                    Audit of NRC’s Information Technology Readiness for Three White Flint North




SCOPE AND METHODOLOGY

We reviewed NRC guidance, industry best practice documents, and relevant
Government Accountability Office and OIG reports to develop criteria for this audit. To
assess NRC’s performance, we interviewed NRC staff, analyzed 3WFN planning
documents and IT support contracts, and toured NRC’s new Operations Center in
3WFN. OIG audited the IT readiness at 3WFN and conducted our work at NRC
headquarters from January 2013 through April 2013. Throughout the audit, auditors
were aware of the possibility or existence of fraud, waste, or misuse in the program.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. This audit was conducted by Beth Serepca, Team Leader; Paul
Rades, Audit Manager; and Neil Doherty, Senior Auditor.




                                              4
